 AUDIT OF THE FEDERAL PRISON 

       INDUSTRIES, INC. 

ANNUAL FINANCIAL STATEMENTS 

      FISCAL YEAR 2013 


      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 


          Audit Report 14-06 

            January 2014 

              FEDERAL PRISON INDUSTRIES, INC.

               ANNUAL FINANCIAL STATEMENTS

                     FISCAL YEAR 2013


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Federal Prison Industries, Inc. (FPI) for the fiscal years (FY) ended
September 30, 2013, and September 30, 2012. In accordance with the
Government Corporation Control Act, as amended (31 U.S.C. §9105), and
under the direction of the Office of the Inspector General (OIG), KPMG LLP
performed the FPI’s audit in accordance with auditing standards generally
accepted in the United States of America. Effective for FY 2013, auditing
standards generally accepted in the United States of America use the term
“unmodified” opinion instead of “unqualified” opinion. The definition of the
two terms is substantially the same. An unmodified opinion means that the
financial statements are presented fairly, in all material respects, in
accordance with U.S. generally accepted accounting principles. The FY 2013
audit resulted in an unmodified opinion on the FY 2013 financial statements.
The FY 2012 financial statements audit was performed by Cotton & Company
LLP and resulted in an unqualified opinion (OIG Audit Report No. 13-03).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors did not
identify any material weaknesses, nor did they report any significant
deficiencies in the FY 2013 Independent Auditors’ Report on Internal Control
over Financial Reporting Based on an Audit of Financial Statements
Performed in Accordance with Government Auditing Standards. No
instances of non-compliance or other matters that are required to be
reported under Government Auditing Standards were identified during the
audit in the FY 2013 Independent Auditors’ Report on Compliance and Other
Matters Based on an Audit of Financial Statements Performed in Accordance
with Government Auditing Standards. Additionally, KPMG LLP’s tests
disclosed no instances in which the FPI’s financial management systems did
not substantially comply with the Federal Financial Management
Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not
express, an opinion on the FPI’s financial statements, conclusions about the



                                     -i-
effectiveness of internal control, conclusions on whether the FPI’s financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations and other matters. KPMG LLP is responsible for the
attached auditors’ reports dated December 3, 2013, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with auditing standards
generally accepted in the United States of America.




                                     -ii-
                      FEDERAL PRISON INDUSTRIES, INC.

                       ANNUAL FINANCIAL STATEMENTS

                             FISCAL YEAR 2013


                                   TABLE OF CONTENTS


                                                                                                  PAGE

MESSAGE FROM THE CHIEF EXECUTIVE OFFICER AND THE
  CHIEF OPERATING OFFICER ........................................................................ 1


MANAGEMENT'S DISCUSSION AND ANALYSIS ................................................... 5


INDEPENDENT AUDITORS’ REPORTS


   REPORT ON FINANCIAL STATEMENTS ......................................................... 15


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING BASED 

   ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN

   ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS .......................... 17


   REPORT ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT

   OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH

   GOVERNMENT AUDITING STANDARDS........................................................ 19


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


   BALANCE SHEETS .................................................................................... 23


   STATEMENTS OF OPERATIONS AND CUMULATIVE RESULTS OF OPERATIONS .. 24


   STATEMENTS OF CASH FLOWS .................................................................. 25


   NOTES TO FINANCIAL STATEMENTS ........................................................... 26

This page intentionally left blank.
We are pleased to present the Federal Prison Industries, Inc.'s
 (FPI) Fiscal Year 2013 Annual Management Report to the Congress
of the United states. This report includes the FPI's financial
statements, Management's Discussion and Analysis, Office of the
Inspector General Commentary and Summary, and the independent
auditors' reports on the Corporation's financial statements,
internal controls over financial reporting and compliance and
other matters.   FPI's financial statements received an
unmodified audit opinion and no significant deficiencies or
material weaknesses were reported.

FPI was established by statute and Executive Order 6917 in 1934,
signed by President Roosevelt to provide opportunities for
educational and work-related experiences to federal offenders.
Although a great deal of time has passed and technology is
changing rapidly, FPI's mission throughout the past 79 years
remains the same -- to protect society and reduce crime by
preparing inmates for successful reentry through job training.

As the Bureau of Prisons' (BOP's) most important inmate reentry
program, approximately 13,000 federal inmates were working in
FPI factories at fiscal year-end. The need to address inmate
idleness was a contributing factor in the creation of FPI in
1934. This program continues to directly support the BOP's
mission by keeping inmates productively occupied which lowers
the likelihood that they will engage in disruptive behavior and
contributes significantly to the safe and secure management of
prisons. Additionally, inmates participating in the FPI program
have an increased likelihood of successful reentry into society
and are significantly less likely to return to a life of crime,
which reduces future costs of enforcement and incarceration.

FPI is a program with proven lasting benefits, including reduced
recidivism; a positive impact on the U.S. economy through the
raw materials purchased from suppliers around the country, and
the staff salaries spent in the community, all without an
additional tax burden to society.

As a federal government corporation, FPI is a program that also
functions as a business to remain self-sustaining, and continues
to face a dynamic set of external and internal constraints.
Due to the nature of the changes affecting purchases from FPI by
the government sector, emphasis has been placed on exploring
more opportunities with commercial customers. New market
authorities, contained in the Consolidated and Further
Continuing Appropriations Act of 2012 (P.L. 112-55) are now
available for FPI to obtain commercial customers through



                                -1-
repatriation and bringing sales otherwise sent to foreign
countries back into the United States. Many new opportunities
are being pursued and a number of pilot programs have already
been implemented which allowed several hundred inmates to
participate in repatriated work projects during this fiscal
year. Additionally, FPI is now authorized to participate in the
Prison Industries Enhancement Certification Program (PIECP).
FPI obtained approval of its PIECP application from the Bureau
of Justice Assistance on May 31, 2013.  FPI has pursued this
opportunity in fiscal year 2013 through research and discussions
with successful state agencies, and plans to move forward with
implementation of the program in fiscal year 2014.


FPI is thankful for the support from all of the Department of
Justice agencies in assisting with the development of work
opportunities to support our mission. Thanks to the outstanding
contributions and dedication of FPI staff as well as the
exceptional leadership provided by the Board of Directors, FPI
will continue to fulfill its missi on and continue to concentrate
its efforts on opportunities that will allow it to succeed in
the years ahead.



M~aj~
Charl~s E. Samuels, Jr.
                                      ~~itchell
                                      Mary
Chief Executive Officer               Chief Operating Officer




                                -2-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

          MANAGEMENT’S
       DISCUSSION & ANALYSIS
            (UNAUDITED)




                -3-
This page intentionally left blank.




                -4-
                             U.S. Department of Justice

                            Federal Prison Industries, Inc.

                         Management’s Discussion and Analysis

                                     (Unaudited)



Mission

It is the mission of Federal Prison Industries, Inc. (FPI) to protect society and reduce crime by
preparing inmates for successful reentry through job training.

Organizational Structure of Federal Prison Industries, Inc.

FPI is a wholly-owned government corporation created by Congress in 1934. FPI is authorized to
operate industries in federal penal and correctional institutions and disciplinary barracks (18 U.S.C. §
4121 to § 4129). The Director of the Federal Bureau of Prisons (BOP), who has jurisdictioQ over all
federal correctional institutions, is the Chief Executive Officer. General management of FPI is
provided by the Chief Operating Officer who also serves as an Assistant Director for the BOP.

In fiscal year 2013, FPI operated in five business segments: Clothing and Textiles, Electronics,
Office Furniture, Recycling, and Services. FPI has industrial and service operations at 78 factories
located at 62 prison facilities as of September 30, 2013. Factories are operated by FPI supervisors
and managers, who train and oversee the work of inmates. The factories utilize raw material and
component parts purchased from the private sector to produce finished goods. Orders for goods and
services are obtained through marketing and sales efforts managed by FPI staff. Some products and
all services are provided on a non-mandatory, preferred source basis.

FPI processes primarily all customer orders and billings along with vendor payments through a
centralized service center at Lexington, Kentucky.

Financial Structure

FPI operates as a revolving fund and does not receive an annual appropriation. The majority of
revenues are derived from the sale of products and services to other federal departments, agencies,
and bureaus. Operating expenses such as the cost of raw materials and supplies, inmate wages, staff
salaries, and capital expenditures are applied against these revenues resulting in operating income or
loss, which is reapplied toward operating costs for future production. In this regard, FPI makes
capital investments in buildings and improvements, machinery, and equipment as necessary in the
conduct of its industrial operation.

FPI sells products and services to the majority of federal departments, agencies and bureaus. FPI’s
largest federal government customers include the Department of Defense (DOD), the Department of
Homeland Security (DHS), the Department of Justice (DOJ), the General Services Administration
(GSA), and the Social Security Administration (SSA).




                                                  -5-
Due to the nature of the changes effecting Federal Prison Industries with the government sector,
emphasis has been placed on exploring more opportunities with commercial customers.
Opportunities in this arena have become available as part of the approval for FPI to obtain
commercial customers through repatriation and bringing sales otherwise sent to foreign countries
back into the United States of America. Many new opportunities are already being pursued through
a collaboration of FPI’s business groups sections and the New Business Development Group.
Additionally, the Consolidated and Further Continuing Appropriations Act of 2012 (P.L. 112-55)
authorized FPI to participate in the Prison Industries Enhancement Certification Program (PIECP).
FPI has invested significant time and effort into pursuing this goal in fiscal year 2013 through
research and discussion within our organization and other agencies. FPI obtained approval of its
PIECP application from the Bureau of Justice Assistance in May 2013. FPI will continue to
aggressively pursue the implementation of the PIECP program in fiscal year 2014.

Critical Accounting Policies

The following discussion and analysis of FPI’s financial condition, results of operations, liquidity
and capital resources are based upon FPI’s financial statements, which have been prepared in
accordance with U.S. generally accepted accounting principles based on accounting standards issued
by the Financial Accounting Standards Board (FASB), the private sector standards-setting body.
These generally accepted accounting principles require FPI management to make estimates and
judgments that affect the reported amount of assets, liabilities, revenues and expenses. In this regard,
FPI management evaluates the estimates on an on-going basis, including those related to product
returns, bad debt, inventories, long-lived assets, and contingencies and litigation. FPI bases its
estimates upon historical experience and various other assumptions that FPI believes are reasonable
under the circumstances. The actual results may differ from these estimates when assumptions or
conditions change.

FPI believes that some of its accounting policies involve complex or higher degrees of judgment than
its other accounting policies. The following accounting policies have been identified by FPI
management as being critical and therefore require more significant estimates or reliance on a higher
degree of judgment on the part of FPI management.

Revenue recognition: Revenue is generally recognized when 1) delivery has occurred or services
have been rendered, 2) persuasive evidence of an arrangement exists, 3) there is a fixed or
determinable price, and 4) collectability is reasonably assured. Revenue from contracts that specify a
customer acceptance criteria is not recognized until either customer acceptance is obtained or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element (numerous stages of product delivery, set up, and
installation) agreements as a single unit of accounting for manufactured items when the product has
been accepted by the customer. Revenue for services provided on behalf of FPI is recognized when
the service provider presents a valid invoice including a customer acceptance or completion notice.

Allowance for doubtful accounts receivable: The allowance for doubtful accounts is based upon



                                                  -6-
an analysis of several factors including payment trends, historical write off experience, credit quality
for non-governmental accounts, and specific analysis of collectability of an account. During the
course of time, these factors may change which will cause the allowance level to adjust accordingly.
As part of their analysis, customer accounts determined to be unlikely to be paid are recorded as a
charge to bad debt expense in the income statement and the allowance account is increased. When it
becomes certain that a customer account will not be paid, the receivable is written off by removing
the balance from accounts receivable.

As of September 30, 2013 and September 30, 2012, FPI had established an allowance for bad debt in
the amount of $.41 million and $.52 million on accounts receivable balances of $39.49 million and
$26.66 million, respectively.

Inventory valuation: FPI maintains its inventory primarily for the manufacture of goods for sale to
its customers. FPI’s inventory is composed of three categories: Raw Materials, Work-in-Process,
and Finished Goods. These categories are generally defined by FPI as follows: Raw Materials
consist of materials that have been acquired and are available for the production cycle, Work-in-
Process is composed of materials that have moved into the production process and have some
measurable amount of labor and overhead added by FPI, Finished Goods are materials with FPI
added labor and overhead that have completed the production cycle and are awaiting sale to
customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.

Program Values

It is FPI’s vision to protect society, reduce crime, aid in the security of the nation’s prisons and
decrease taxpayer burden, by assisting inmates with developing vital skills necessary for successful
re-entry into society. Through the production of market-priced quality goods and services, FPI
provides job training and work opportunities to inmates, while minimizing impact on private
industry and labor.

The goal of FPI is to reduce undesirable inmate idleness by providing a full-time work program for
inmate populations. Many of the inmates do not have marketable employment skills. FPI provides a
program of constructive industrial work and services wherein job skills can be developed and work
habits acquired.

FPI has existed as an effective correctional program for 79 years. Over the course of these years, FPI
has positively impacted countless staff and inmate lives. In the face of an escalating inmate
population and an increasing percentage of inmates with histories of violence, FPI’s programs have



                                                  -7-
helped ease tension and avert dangerous situations, thereby protecting lives and federal property. FPI
work programs provide meaningful activities for inmates, thereby playing an essential role in the
operation of safe, secure and less costly prisons.

At the same time, FPI provides opportunities for inmates who want to take the personal
responsibility for rehabilitating themselves. More than 95 percent of inmates eventually will be
returned to society; industrial programs can help them to steer clear of criminal activity after release.
Participation in FPI programs improves the likelihood that inmates will remain crime-free upon their
release from BOP custody. A comprehensive study conducted by the BOP demonstrated that FPI
provides inmates with an opportunity to develop work ethics and skills, contributes substantially to
lower recidivism and increases job-related success of inmates upon release. This study indicates that
inmates involved in FPI work programs are substantially less likely to return to prison. The impact
on the lives of people who live in the communities in which these inmates will return is
immeasurable. Countless lives are spared the devastating impact of continued criminal activity.

Analysis of Financial Statements

Cash and Investments

Cash and Cash Equivalents decreased $18.4 million during the year. An increase in Accounts
Receivable of $12.9 million contributed to a reduction of FPI (non-advance) cash of $11.6 million
during fiscal year 2013. Cash Advances decreased by $6.9 million. FPI’s cash advances are
primarily for the purchase of inventory in support of the Fleet Management and Vehicular
Components vehicle retrofitting operation. The primary customer for these operations is the
Department of Homeland Security; advances fluctuate throughout the year as they receive
appropriations.

Accounts Receivable

The Accounts Receivable balance increased $12.9 million during fiscal year 2013. The Accounts
Receivable balance of $39.1 million as of September 30, 2013, represents 78.6 percent of
September’s total revenues. FPI’s average days to collect for fiscal year 2013 was approximately 24.
The Accounts Receivable balance over sixty days old represented 7.8 percent of the total balance as
of September 30, 2013.

Inventory

Inventory decreased by $33.8 million during fiscal year 2013. FPI continued to place emphasis on
inventory reduction during fiscal year 2013. The Electronics business segment was the primary
contributor to the reduction with a decrease of $33.1 million. The Electronics segment decrease can
be attributed to the decrease in fleet vehicle, solar panel and cable product line inventories totaling
$24.8 million, $5.8 million and $3.0 million respectively.




                                                  -8-
Liabilities

Total Liabilities decreased by $42.4 million during fiscal year 2013. The primary contributors to the
decrease were a $35.8 million reduction in Advances Payable and a $3.5 million reduction in
Accounts Payable. This decrease is attributable to a change in customer advances payable on hand
primarily for the retrofitting of vehicles for the Department of Homeland Security (DHS) as a result
of a decrease in customer contracts. The decrease in Accounts Payable is relative to a corresponding
reduction in inventory as a result of an overall decrease in sales orders.

Revenue, Cost of Revenue and Net Loss

Total Revenue decreased by $88.4 million while total cost of revenue decreased by $94.1 million.
The decrease in revenue resulted primarily from the decrease in sales revenue of $72.8 million and a
reduction in corresponding freight collections of $7.3 million. The largest business segments showing a
decrease in sales were Electronics $49.3 million, Office Furniture with $42.3 million, and Services with
$4.6 million. The Textiles and Recycling business segments had offsetting increases of $21.2 million and
$2.3 million in sales respectively. The Net Loss decreased $24.0 million in fiscal year 2013 compared to
fiscal year 2012. Factory Earnings were $14.5 million higher in fiscal year 2013 than the previous fiscal
year primarily due to a reduction in factory overhead of $11.0 million.

Business Segments

In fiscal year 2013, FPI’s businesses were organized, managed and internally reported as five
operating segments based on products and services. These segments are Clothing and Textiles,
Electronics, Office Furniture, Recycling, and Services. FPI is not dependent on any single product as
a primary revenue source; however, it is currently primarily dependent on the federal government
market for the sale of its products. FPI’s net industrial income (earnings) at the business segment
level consists of sales offset by cost of goods sold and under /over applied overhead. FPI redefined
its business segments from six categories to five in fiscal year 2013. The Fleet and Industrial
Products business segment was consolidated into the Electronics, Office Furniture, and Services
business segments. As a result, net sales and earnings for fiscal year 2012 for Electronics, Office
Furniture, and Services have been reclassified for comparative purposes.




                                                  -9-
Business Segment                                    Fiscal Year
Clothing and Textiles                    2013                        2012
Sales                                   $235,691                   $214,522
Earnings                                 $36,663                    $20,642
Electronics
Sales                                   $128,120                    $177,462
Earnings                                 ($3,969)                    ($8,964)
Office Furniture
Sales                                   $118,533                   $160,850
Earnings                                  $3,904                    $12,350
Recycling
Sales                                    $17,900                     $15,563
Earnings                                  $6,566                      $4,764
Services
Sales                                    $33,093                     $37,717
Earnings                                  $3,051                      $2,921
Corporate Total
Sales                                   $533,337                    $606,114
Earnings                                 $46,215                      $31,713

Possible Future Effects of Existing Events and Conditions

During fiscal year 2013, FPI encountered a decline in sales for the fourth consecutive year and
experienced a net loss for the fifth consecutive year. Although sales revenue continued to decline by
$72.8 million during fiscal year 2013, the net loss of $4.3 million was a considerable improvement
when compared to the fiscal year 2012 loss of $28 million. The $4.3 million loss is not as substantial
as would be expected considering the rate of decline in sales. This variation can be attributed to on­
going cost containment initiatives by FPI. Included in this net loss is approximately $3.9 million in
write down of solar panel inventory.

In fiscal years 2014 and beyond, FPI faces the additional challenge of the shrinking federal budget,
the resulting decline in discretionary spending and the ultimate impact of decline in FPI sales. FPI
continues to make every effort to mitigate the impact of these challenges through aggressively
pursuing new customers and new products, employment of part time inmates, staffing and other cost
reductions, new opportunities for revenue, and stringent measures to control cash. Additionally, FPI
has been active in communicating with our federal customers to determine if our current product
offerings meet their current needs and to make them aware of new repatriated product offerings.
Further emphasis has been placed on DOJ agencies through meetings with component heads and
tracking of their respective incoming orders. Due to the collective impact of these efforts, FPI’s
operating plan for fiscal year 2014 projects a $38 thousand net income.


                                                -10-
Prison Industries Enhancement Certification Program

The Consolidated and Further Continuing Appropriations Act of 2012 (P.L. 112-55) authorized FPI
to participate in the Prison Industries Enhancement Certification Program (PIECP) and to
manufacture products that would otherwise be produced outside of the United States, as approved by
FPI's Board of Directors. FPI has invested significant time and effort into pursuing this goal in fiscal
year 2013 through research and discussion within our organization and other agencies. FPI obtained
approval of its PIECP application from the Bureau of Justice Assistance in May 2013. FPI will
continue to aggressively pursue the implementation of the PIECP program in fiscal year 2014.

Repatriation

Due to the nature of the changes effecting Federal Prison Industries with the government sector,
emphasis has been placed on exploring more opportunities with commercial customers.
Opportunities in this arena have become available as part of the approval for FPI to obtain
commercial customers through repatriation and bringing sales otherwise sent to foreign countries
back into the United States of America. Many new opportunities are already being pursued through
a collaboration of FPI’s business group sections and the New Business Development Group.

Part Time Inmates

FPI’s continued emphasis on the use of part time and half time inmate workers resulted in a 41
percent increase during fiscal year 2013, adding 728 inmates to the classification, which contributed
significantly to FPI meeting its goal to employ 13,000 inmates during 2013. Continued emphasis in
2014 and beyond will allow for an increase in the number of inmates participating in the FPI
program while reducing the per inmate cost of employment. Concentration on this goal will increase
the impact on the number of inmates released with FPI experience.

Long Term Investment

During fiscal year 2013, FPI began investing in long-term market bonds through the Treasury
Department. Past research revealed that it was not advantageous. Due to changed rates and market
conditions, the prospect of investing in long term bonds was re-evaluated and was determined to be
beneficial to pursue. The initial investment into the bonds occurred in January 2013 and an
additional amount was invested later in the fiscal year. Due to the long-term nature of the bonds, FPI
receives a higher rate of return on their investment of cash in these bonds. As a result, fiscal year
2013 investment earnings are approximately twice what they would have been had the long-term
option not been pursued.

Payment Card

During fiscal year 2013, FPI evaluated the benefit that may be derived from implementing the J.P.
Morgan bank card as a payment card. It was determined that the potential exists for substantial
income to be generated through rebates. FPI is in the process of implementing this program with the
first significant benefits to be received in January 2014. The operating plan for 2014 includes an
estimate of $3 million dollars additional income to be generated from this program.


                                                 -11-
Pending Investigations

In December 2009, the Department of Justice, Office of the Inspector General, initiated an
investigation regarding the manufacturing and quality procedures for some of the military helmets
produced by FPI. This investigation is still ongoing. FPI’s management is committed to ensuring
FPI produces a quality product that meets the requirements of our customers.




                                              -12-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

    INDEPENDENT AUDITORS’ REPORTS




                 -13-
This page intentionally left blank.




               -14-
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




                       Independent Auditors’ Report on the Financial Statements


Inspector General
U.S. Department of Justice


Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
U.S. Department of Justice


We have audited the accompanying financial statements of the U.S. Department of Justice Federal Prison
Industries, Inc. (FPI) which comprise the balance sheet as of September 30, 2013, and the related
statements of operations and cumulative results of operations, and cash flows (hereinafter referred to as
“financial statements”) for the year then ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of the financial
statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audit. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditors consider internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.

                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                           -15-
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of Justice Federal Prison Industries, Inc. as of September 30,
2013, and its net loss, cumulative results of operations, and cash flows for the year then ended in
accordance with U.S. generally accepted accounting principles.

Other Matters

Prior Period Financial Statements Audited by a Predecessor Auditor

The accompanying financial statements of the FPI as of September 30, 2012 and for the year then ended
were audited by other auditors whose report thereon dated November 5, 2012, expressed an unmodified
opinion on those financial statements.

Other Information

Our audit was conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The Management Discussion and Analysis is presented for purposes of additional analysis and is
not a required part of the basic financial statements. Such information has not been subjected to the
auditing procedures applied in the audit of the basic financial statements, and accordingly, we do not
express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our fiscal year 2013 report dated
December 3, 2013 on our consideration of the FPI’s internal control over financial reporting, and our fiscal
year 2013 report dated December 3, 2013 on our tests of its compliance with certain provisions of laws,
regulations, contracts, and other matters. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards in considering the FPI’s
internal control over financial reporting and compliance.




December 3, 2013




                                                 -16-
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of the U.S.
Department of Justice Federal Prison Industries, Inc. (FPI), which comprise the balance sheet as of
September 30, 2013, and the related statements of operations and cumulative results of operations, and
cash flows (hereinafter referred to as “financial statements”) for the year then ended, and the related notes
to the financial statements, and have issued our report thereon dated December 3, 2013.

Internal Control over Financial Reporting

In planning and performing our audit of the financial statements as of and for the year ended September 30,
2013, we considered the FPI’s internal control over financial reporting (internal control) to determine the
audit procedures that are appropriate in the circumstances for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the FPI’s
internal control. Accordingly, we do not express an opinion on the effectiveness of the FPI’s internal
control. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                           -17-
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of
that testing, and not to provide an opinion on the effectiveness of the FPI’s internal control. This report is
an integral part of an audit performed in accordance with Government Auditing Standards in considering
the FPI’s internal control. Accordingly, this communication is not suitable for any other purpose.




December 3, 2013




                                                 -18-
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




  Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Financial
            Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of the U.S.
Department of Justice Federal Prison Industries, Inc. (FPI), which comprise the balance sheet as of
September 30, 2013, and the related statements of operations and cumulative results of operations, and
cash flows (hereinafter referred to as “financial statements”) for the year then ended and the related notes
to the financial statements, and have issued our report thereon dated December 3, 2013.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the FPI’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which the FPI’s financial management systems did
not substantially comply with the (1) federal financial management system requirements, (2) applicable
federal accounting standards, and (3) application of the United States Government Standard General
Ledger at the transaction level.




                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                           -19-
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the FPI’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the FPI’s compliance.
Accordingly, this communication is not suitable for any other purpose.




December 3, 2013




                                                 -20-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

    PRINCIPAL FINANCIAL STATEMENTS

          AND RELATED NOTES





                  -21-
This page intentionally left blank.




               -22-
                                                                    Federal Prison Industries, Inc.
                                                                                                       Balance Sheets

As of September 30,
(DOLLARS IN THOUSANDS)                                                                2013                       2012

Assets

Current:
  Cash and cash equivalents                                                   $      282,165             $      300,544
  Accounts receivable, net                                                            39,074                     26,141
  Inventories, net                                                                    95,411                    129,254
  Other assets                                                                           325                        828
         Total current assets                                                        416,975                    456,767

Property, plant and equipment, net                                                    80,748                      87,631
         Total Assets                                                         $      497,723             $      544,398

Liabilities and United States Government Equity

Current:
  Accounts payable                                                            $       38,295             $        43,595
  Deferred revenue                                                                    59,098                      94,892
  Accrued salaries and wages                                                           4,563                       9,610
  Accrued annual leave                                                                 7,337                       8,133
  Other accrued expenses                                                               9,193                       7,474
         Total current liabilities                                                   118,486                    163,704

FECA actuarial liability                                                              21,715                      18,920
         Total Liabilities                                                           140,201                    182,624

United States Government Equity
  Initial capital                                                                      4,176                      4,176
  Cumulative results of operations                                                   353,346                    357,598

  Total United States Government Equity                                              357,522                    361,774
         Total Liabilities and United States Government Equity                $      497,723             $      544,398

                                                  The accompanying notes are an integral part of these financial statements.




                                                   -23-
                                                       Federal Prison Industries, Inc.
                            Statements of Operations and Cumulative Results of Operations

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                  2013                        2012

Revenue:

 Net sales                                                      $      533,337              $       606,114

 Other revenue                                                           76,391                      92,043

 Total revenue                                                         609,728                      698,157

Cost of revenue:

 Cost of sales                                                         486,494                      566,410

 Cost of other revenue                                                   74,561                      88,756

 Total cost of revenue                                                 561,055                      655,166

Gross profit                                                             48,673                      42,991

Operating expenses:

 Sales and marketing                                                      4,257                        5,916

 General and administrative                                              82,210                     101,938


 Total operating expenses                                                86,467                     107,854


Loss from operations                                                    (37,794)                    (64,863)

Interest income                                                             238                          138

Interest expense                                                               (2)                         (1)

Other income, net                                                        33,306                      36,476


Net loss                                                                 (4,252)                    (28,250)

Cumulative results of operations, beginning of fiscal year             357,598                      385,848


Cumulative results of operations, end of fiscal year            $      353,346              $       357,598


                                     The accompanying notes are an integral part of these financial statements.




                                                -24-
                                                              Federal Prison Industries, Inc.
                                                                                   Statements of Cash Flows

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                          2013                       2012

CASH FLOWS FROM OPERATING ACTIVITIES

Net loss                                                                $         (4,252)          $       (28,250)
Adjustments to reconcile net income to net cash
   provided by operating activities:

      Depreciation and amortization                                               8,650                     10,067
      Loss on disposal of property, plant and equipment                             291                      7,549
      Changes in:
       Accounts receivable                                                      (12,933)                    20,539
       Inventories                                                               33,843                      4,680
       Other assets                                                                 503                      1,755
       Accounts payable and accrued expenses                                     (6,629)                       (56)
       Deferred revenue                                                         (35,794)                    (4,777)

Net cash provided by (used in) operating activities                             (16,321)                    11,507


CASH FLOWS FROM INVESTING ACTIVITIES

  Purchases of property, plant and equipment                                      (2,058)                    (2,384)

  Construction-in-progress of plant facilities                                       -                          (89)


Net cash used in investing activities                                             (2,058)                    (2,473)


Net increase (decrease) in cash and cash equivalents                           (18,379)                      9,034
Cash and cash equivalents, beginning of fiscal year                            300,544                     291,510
Cash and cash equivalents, end of fiscal year                           $      282,165             $       300,544




                                            The accompanying notes are an integral part of these financial statements.




                                                  -25-
                                    Fiscal Years 2013 and 2012
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 1. Organization and Mission

Federal Prison Industries, Inc. (FPI) was established in 1934 by an act of the United States Congress.
FPI operates under the trade name UNICOR, as a wholly-owned federal government corporation
within the Department of Justice, and functions under the direction and control of a Board of
Directors, (the “Board”). Members of the Board are appointed by the President of the United States
of America and represent retailers and consumers, agriculture, industry, labor, the Attorney General,
and the Secretary of Defense. FPI’s statutory mandate is to provide employment and training for
inmates in the Federal Prison System while remaining self-sufficient through the sale of its products
and services.

FPI’s federal government customers include departments (percent of Revenue shown in parenthesis),
agencies and bureaus such as the Department of Defense (59%), the Department of Homeland
Security (12%), the Department of Justice (10%), the General Services Administration (6%), and the
Social Security Administration (2%). These and other federal organizations are generally required to
purchase products from FPI, if its products meet the customer’s price, quality, and delivery
standards, under a mandatory source preference specified in FPI’s enabling statute and the Federal
Acquisition Regulation.

FPI has industrial and service operations at 78 and 81 factories located at 62 and 63 prison facilities
that employed 13,001 and 13,369 inmates representing approximately 7% and 8% of the work
eligible inmate population as of September 30, 2013 and September 30, 2012, respectively.


Note 2. Summary of Significant Accounting Policies

Basis of Accounting

FPI transactions are recorded on the accrual basis of accounting. Under the accrual basis, revenues
are recorded when earned and expenses are recorded when incurred, regardless of when the cash is
exchanged.

Basis of Presentation

FPI has historically prepared its external financial statements in conformity with U.S. generally
accepted accounting principles based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) has been designated as the standards-setting body for federal
financial reporting entities with respect to the establishment of US GAAP. FASAB allows certain
government agencies to utilize FASB standards for Financial Statement presentations.




                                                -26-
                                      Fiscal Years 2013 and 2012
                                     Notes to Financial Statements
                                        (Dollars in Thousands)

Use of Estimates

The preparation of financial statements in conformity with US GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and contingent liabilities at the date of the financial statements and reported
amounts of revenues and expenses during the reporting period. Actual results may differ from those
estimates.

Cash and Cash Equivalents

FPI considers all highly liquid investments purchased with an original maturity of three months or
less to be cash equivalents. FPI’s investment activities and cash equivalents include both overnight
repurchase agreements and one-year market bonds with the Bureau of Public Debt of the United
States Treasury. FPI’s investment in market bonds is redeemable at any time without penalty at the
original market interest rate and is therefore not subject to interest rate risk. As a result, these market
bonds are classified as cash equivalents on the accompanying balance sheets. The market value of
overnight purchase agreements is equivalent to cost. The discount on the market bonds is amortized
monthly and recorded as investment income.

Accounts Receivable / Concentration of Credit Risk

Financial instruments that potentially subject FPI to concentrations of credit risk consist primarily of
accounts receivable. FPI sells products and services to various federal government departments,
agencies and bureaus, as well as certain private sector companies, without requiring collateral.
Accounts receivable consists of amounts due from those entities and is stated net of an allowance for
doubtful accounts.

FPI routinely assesses the payment histories of its federal customers and the financial strength of its
private sector customers and maintains allowances for anticipated losses as they become evident. In
this regard, an insignificant amount of accounts receivable remained past due at September 30, 2013
and September 30, 2012. A significant portion of these past due items relate to billings to various
entities within Department of Defense (DOD) who rely on the Defense Finance and Accounting
Service (DFAS) to process vendor payments. Historically, customer payments processed through
DFAS have generally taken longer to receive than payments from other federal and private sector
customers. FPI believes that ultimately, a majority of its past-due accounts receivable are fully
collectable. The amount due FPI, net of allowances, from DOD for the fiscal years ended September
30, 2013 and 2012 was $23,238 and $14,525, respectively.

While federal accounts receivable are normally fully collectible in accordance with federal law, FPI
has established an allowance for future losses against its federal accounts receivable to account for
potential billing errors related to pricing and customer discounts, as well as instances of expired or
cancelled funding from its federally appropriated customers. At September 30, 2013 and 2012, FPI’s
allowance for doubtful accounts is stated at approximately $412 and $519, respectively, of which
approximately $206 and $98, respectively, represents the amounts allocated against federal accounts
                                                  -27-
                                    Fiscal Years 2013 and 2012
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

receivable.

Inventories

FPI maintains its inventory primarily for the manufacture of goods for sale to its customers. FPI’s
inventory is composed of three categories: Raw Materials, Work-in-Process, and Finished Goods.
These categories are generally defined by FPI as follows: Raw Materials consist of materials that
have been acquired and are available for the production cycle, Work-in-Process is composed of
materials that have moved into the production process and have some measurable amount of labor
and overhead added by FPI, Finished Goods are materials with FPI added labor and overhead that
have completed the production cycle and are awaiting sale to customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.

Advances to Vendors

FPI generally does not offer advances to the public; however, where warranted, FPI will on occasion
make an advance to a vendor. Historically, these advances have been insignificant and made
primarily to the Industries for the Blind. Prior to issuing advances to a vendor, the Centralized
Accounts Receivable section performs a review as though they were a public customer, to include
performing a due diligence review to assess risk and a review of applicant financial statements. A
letter of credit is obtained as needed based on the results of this review. The FPI Controller approves
advances prior to their disbursement. Advances are reduced by offset to the vendor invoice as goods
are delivered.

Revenue Recognition

FPI sells a wide range of products and services to a diversified base of customers, primarily
governmental departments, agencies and bureaus. Revenue is generally recognized when delivery
has occurred or services have been rendered, persuasive evidence of an arrangement exists, there is a
fixed or determinable price, and collectability is reasonably assured. Revenue from contracts that
require customer acceptance are not recognized until either customer acceptance is obtained, or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element agreements as a single unit of accounting for
manufactured items when the product has been accepted by the customer. Revenue for services

                                                -28-
                                    Fiscal Years 2013 and 2012
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

provided on behalf of FPI through an outside company is recognized when the service provider
presents a valid invoice including a customer acceptance or completion notice.

FPI records as other revenue the shipping and handling costs that have been billed to customers,
installation costs for FPI products, and items procured for its customers as part of procurement
services provided by the Marketing, Activation, Research, and Corporate Support Branch. The cost
of providing this service is recorded as a cost of other revenue.

Deferred revenue is comprised of customer cash advances, which have been paid to FPI prior to the
manufacturing of goods, delivery of goods, or performance of services.

Other income includes imputed financing for retirement, health benefits and life insurance (Note 8).

Property, Plant and Equipment

Property, plant and equipment are stated at cost, net of accumulated depreciation. Depreciation is
computed using the straight-line method over the following estimated useful lives:

                                        Years
Machinery & Equipment                   2 - 25
Computer Hardware                       2 - 10
Computer Software                       2-5
Building & Improvements                 24 - 40

Upon retirement or disposition of property and equipment, the related gain or loss is reflected in the
statements of operations. Repairs and maintenance costs are expensed as incurred.

Taxes

As a wholly-owned corporation of the federal government, FPI is exempt from federal and state
income taxes, gross receipts tax, and property taxes.

Reclassifications

Certain fiscal year 2012 financial statement line items have been reclassified to conform with the
current year presentation. The reclassifications had no material effect on total assets, liabilities,
equity, cumulative results of operations, or cash flows as previously reported.




                                                  -29-
                                    Fiscal Years 2013 and 2012
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 3. Accounts Receivable, Net

Accounts receivable, net consists of the following:

As of September 30,                                             2013                  2012

Intragovernmental billed receivables                       $    35,468             $ 21,676
Private sector billed receivables                                4,018                4,984
                                                                39,486               26,660
Less allowance for doubtful accounts                               412                  519

Accounts receivable, net                                   $    39,074             $ 26,141

FPI incurred bad debt expense of $(37) and $564, respectively, for the fiscal years ended September
30, 2013 and 2012.


Note 4. Inventories, Net

Inventories, net consist of the following:

As of September 30,                                            2013                    2012
Raw materials                                               $ 47,462               $ 37,956
Raw materials – vehicles                                       4,759                 27,871
Work-in-process                                               19,830                 21,740
Finished sub-assemblies                                        5,681                  5,503
Finished goods                                                27,209                 42,955
Finished goods – acceptance contracts                         17,084                 19,645
                                                             122,025                155,670
Less inventory allowance                                      26,614                 26,416

Inventories, net                                            $ 95,411              $ 129,254


$4,759 of FPI’s fiscal year 2013 and $27,871 of FPI’s fiscal year 2012 raw materials balance
represents vehicles and component parts for use in the fleet management retrofit product line. A
majority of that inventory balance has been contracted on behalf of the Customs and Border
Protection and Bureau of Immigration and Customs Enforcement of the Department of Homeland
Security (DHS) for retrofit services that are performed by FPI. As part of an interagency agreement,
DHS provides advance funding to FPI to procure these vehicles. Revenue is recognized by FPI at the
time of shipment of retrofitted vehicles to DHS.



                                               -30-
                                     Fiscal Years 2013 and 2012
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

$17,084 of FPI’s fiscal year 2013 and $19,645 of its fiscal year 2012 finished goods balance
represents goods shipped to customers or their agents for unrecognized revenue due to acceptance
criteria within the customer contract. The balances as of September 30, 2013 and September 30,
2012 are primarily systems furniture installations and destination acceptance contracts shipped after
the cutoff date for revenue recognition.


Note 5. Property, Plant and Equipment, Net

Property, plant and equipment, net consist of the following:

As of September 30,                                                  2013                  2012

Buildings and improvements                                     $ 172,093              $ 177,613
Machinery and equipment                                           99,297                100,098
Computer hardware                                                  2,732                  2,713
Computer software                                                  7,139                  6,519
                                                                 281,261                286,943
Less accumulated depreciation                                    200,513                199,312
Property, plant and equipment, net                               $ 80,748              $ 87,631


Depreciation and amortization expense totaled $8,650 and $10,067 for the fiscal years ended
September 30, 2013 and 2012, respectively. During fiscal year 2013, FPI invested $2,058 for the
purchase and construction of property, plant and equipment. During fiscal years 2013 and 2012, FPI
deactivated factories in an effort to reduce excess factory capacity. As a result of these deactivations,
FPI incurred losses on property plant and equipment of $120 in fiscal year 2013, and $7,293 in fiscal
year 2012.




                                                 -31-
                                      Fiscal Years 2013 and 2012
                                     Notes to Financial Statements
                                        (Dollars in Thousands)

Note 6. Other Accrued Expenses

Other accrued expenses consist of the following:

As of September 30,                                           2013                     2012

Materials in transit                                    $    1,753                 $      81
Relocation travel expense                                      966                     1,268
FECA liabilities – current portion                           2,135                     1,981
Financial audit expense                                        492                       573
Telecommunication expense                                    1,048                     1,226
Utilities                                                      804                       779
Warranty expense                                               388                       418
Other expense                                                1,607                     1,148

Other accrued expenses                                      $ 9,193               $ 7,474


Included in other expense as of September 30, 2013 and September 30, 2012 are accruals for Intra-
Departmental agreements of $701 and $774 and accruals for vendor invoices of $311 and $180,
respectively.


Note 7. Business Segments

FPI’s businesses are organized, managed and internally reported as five operating segments based on
products and services. These segments are Clothing and Textiles, Electronics, Office Furniture,
Recycling, and Services. FPI is not dependent on any single product as a primary revenue source;
however, it is currently predominately dependent on the federal government market for the sale of its
products and services. FPI’s net sales for the fiscal years ended September 30, 2013 and 2012 for
each of its business segments is presented for comparative purposes:




                                                 -32-
                                   Fiscal Years 2013 and 2012
                                  Notes to Financial Statements
                                     (Dollars in Thousands)

Net Sales
For the years ended September 30,                             2013                  2012

Business Segment

Clothing and Textiles                                     $ 235,691               $ 214,522
Electronics                                                 128,120                 177,462
Office Furniture                                            118,533                 160,850
Recycling                                                    17,900                  15,564
Services                                                     33,093                  37,716


Net sales                                                 $ 533,337               $ 606,114



FPI redefined its business segments from six categories to five in fiscal year 2013. The Fleet and
Industrial Products business segment was consolidated into the Electronics, Office Furniture, and
Services business segments. As a result, net sales for fiscal year 2012 for Electronics, Office
Furniture, and Services have been reclassified for comparative purposes.

Regulatory Compliance

FPI’s ability to add or to expand production of a specified mandatory product is regulated by the
Federal Prison Industries Reform Act (“the Act”). The Act provides specific guidelines to FPI
regarding its methodology for evaluating and reporting new or expanded products. FPI also has
procedures for competitive and non-mandatory items it produces. Finally, publication of annual
decisions of the FPI Board of Directors and semi-annual sales disclosures are mandated under the
Act.


Note 8. Intra-Department of Justice (DOJ) / Intragovernmental Financial Activities

FPI’s financial activities interact with and are dependent upon those of DOJ and the federal
government as a whole. The following is a discussion of certain intra-DOJ and intragovernmental
activities and their relationship with FPI:

Relationship with the Federal Bureau of Prisons

FPI and the Federal Bureau of Prisons (BOP) have a unique relationship in that the nature of their
combined missions requires the sharing of facilities and responsibilities relative to the custody,
training and employment of federal inmates. The Director of the BOP, who has jurisdiction over all
federal penal correctional institutions, is the Chief Executive Officer (CEO). General management of
FPI is provided by the Chief Operating Officer who also serves as an Assistant Director of the BOP.
                                               -33-
                                    Fiscal Years 2013 and 2012
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

The BOP provides land to FPI for the construction of its manufacturing facilities and both FPI and
BOP share certain facilities, generally at no cost to FPI. In accordance with Managerial Cost
Accounting Concepts a reasonable estimate of these costs as provided by the BOP is included in
general expense and other income of FPI for the fiscal years ended September 30, 2013 and 2012,
respectively.

Self Insurance

In accordance with federal government policy, FPI is uninsured with respect to property damage,
product liability, and other customary business loss exposures. Losses incurred are absorbed as a
current operating expense of FPI or, if they are induced by factors related to FPI’s relationship with
the Federal Prison System, may be reimbursed by BOP. Certain other costs, principally relating to
personal injury claims, are paid directly by the federal government.

Federal Employees Compensation Act

The Federal Employees Compensation Act (FECA) provides income and medical cost protection to
cover federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job related
injury or occupational disease. The United States Department of Labor (DOL), which administers
FECA, annually charges each federal agency and department for its applicable portion of claims and
benefits paid in the preceding year. As of September 30, 2013 and September 30, 2012, the accrued
FECA liabilities as charged to FPI, approximated $2,135 and $1,981, respectively.

DOL also calculates the liability of the federal government for future claims and benefits, which
includes the estimated liability of death, disability, medical, and other approved costs. Future claims
and benefits are determined from an actuarial extrapolation, utilizing historical benefit payment
patterns and calculations of projected future benefit payments discounted to current value over a 23.5
year period. FPI’s estimated future liability approximated $21,715 and $18,920 at September 30,
2013 and 2012, respectively.

Retirement

Substantially all of FPI’s civilian employees are covered under either the Civil Service Retirement
System (CSRS), the Federal Employee Retirement System (FERS) or the Federal Employee
Retirement System-Revised Annuity Employees (FERS-RAE) System. For employees covered by
the CSRS, (those employees hired prior to January 1, 1984), for fiscal years ended September 30,
2013 and September 30, 2012, FPI contributed approximately 7 percent (for normal retirement) or
7.5 percent (for hazardous duty retirement) of each employee’s salary, respectively. CSRS covered
employees do not have Federal Insurance Contribution Act (FICA) withholdings and, thus, are not
fully eligible to receive Social Security benefits. For employees covered by the FERS, (generally
those employees hired on or after January 1, 1984), FPI contributed (for normal retirement) 11.9
percent and 11.7 percent for fiscal years ended September 30, 2013 and September 30, 2012. FPI
contributed (for hazardous retirement) 26.3 percent and 25.7 percent for fiscal years ended
                                                -34-
                                     Fiscal Years 2013 and 2012
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

September 30, 2013 and September 30, 2012. For employees covered by the FERS-RAE, (generally
those employees hired on or after January 1, 2013), FPI contributed (for normal retirement) 9.6
percent and 24.0 percent (for hazardous duty retirement) for the fiscal year ended September 30,
2013.

Under FERS and FERS-RAE, employees also receive retirement benefits from Social Security and,
if applicable, benefits from a defined contribution plan (thrift). Under the thrift plan, an employee
may contribute (tax deferred) to an investment fund, up to $17,500 of salary for the fiscal year ended
September 30, 2013 and $17,000 of salary for the fiscal year ended September 30, 2012. FPI then
matches this amount up to 4 percent in addition to an automatic 1 percent that is contributed for all
FERS and FERS-RAE employees. Those employees that elected to remain under CSRS after
January 1, 1984 continue to receive benefits in place, and may also contribute (tax deferred) up to
$17,500 of their salary to the thrift plan for the fiscal year ended September 30, 2013 and up to
$17,000 of salary for the fiscal year ended September 30, 2012, but with no automatic or matching
amount contributed by FPI.

CSRS, FERS, and FERS-RAE are multi-employer plans. Although FPI funds a portion of pension
benefits relating to its employees, and provides for the necessary payroll withholdings, it does not
maintain or report information with respect to the assets of the plans, nor does it report actuarial data
with respect to accumulated plan benefits or the pension liability relative to its employees. The
reporting of such amounts is the responsibility of the United States Office of Personnel Management
(OPM).

FPI’s contribution to both plans was approximately $25,253 and $26,855 for the fiscal years ended
September 30, 2013 and September 30, 2012, respectively.

FPI must recognize its share of the cost of providing pension benefits to eligible employees utilizing
cost factors determined by the OPM. Included in general and administrative expense is
approximately $2,362 and $2,423 in the fiscal years ended September 30, 2013 and 2012,
respectively, with an offsetting credit to other income on the Statements of Operations and
Cumulative Results of Operations.

Health Benefits and Life Insurance

FPI, through the OPM, offers health and life insurance plans under which premium costs for health
care are shared between FPI and the employees. A substantial portion of life insurance premiums are
paid for by employees. Amounts paid by FPI for health benefits and life insurance approximated
$9,407 and $9,717 for the fiscal years ended September 30, 2013 and 2012, respectively.

OPM also provides health care and life insurance benefits for FPI’s retired employees. FPI must
recognize an expense related to its share of the cost of such post-retirement health benefits and life
insurance on a current basis (while its employees are still working), with an offsetting credit to other
income. Costs in this regard, which approximated $5,127 and $6,420 during the fiscal years ended
September 30, 2013 and 2012, respectively, were determined by OPM utilizing cost factors to
                                                 -35-
                                    Fiscal Years 2013 and 2012
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

estimate the cost of providing post-retirement benefits to current employees. However, because of
the offsetting credit, which is reflected as other income on the Statements of Operations and
Cumulative Results of Operations, the recording of these costs has no impact on reported net income
or cash flows.

Future post-retirement health care and life insurance benefit costs are not reflected as a liability on
FPI’s financial statements, as such costs are expected to be funded in future periods by OPM.


Note 9. Sales and Marketing, General and Administrative Expenses

Sales and marketing, general and administrative expenses consist of the following:

Fiscal years ended September 30,                                       2013                    2012

Salaries, wages and benefits                                        $ 39,494               $ 42,986
Permanent change of station expense                                      743                  1,657
Purchases of minor equipment                                             495                    172
Contract services                                                      7,625                  9,270
Bad debt expense                                                        (37)                    564
Credit card service fees                                                 716                    970
Travel                                                                 1,063                  1,487
Personal computer expense                                              1,315                  1,458
Accident compensation                                                  4,881                  4,660
Financial audit                                                        1,131                  1,257
Marketing                                                              1,261                  1,550
Depreciation                                                           1,496                  2,122
Loss on disposition of assets                                            291                  7,549
Gain on disposition of assets                                           (29)                   (33)
Telecommunication expense                                              2,451                  2,914
Other expense                                                        (4,987)                (4,290)
Imputed pension costs (Note 8)                                         2,362                  2,423
Imputed post-retirement health
   care and life insurance cost (Note 8)                              5,127                   6,420
Imputed operating costs                                              21,069                  24,718

Sales and marketing, general
   and administrative expenses                                      $ 86,467              $ 107,854


Other expense is comprised primarily of inmate wages, maintenance agreements, and distributions to
factory operations. FPI distributes certain General and Administrative expenses that benefit all
locations to the individual factory levels. These charges include computer licenses and fees, civilian
and inmate accident compensation, and check charges. These charges totaled $7.4 million for fiscal
                                                -36-
                                     Fiscal Years 2013 and 2012
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

year 2013 and $7.7 million for fiscal year 2012. Contract services consist primarily of consulting
and sales and marketing fees. Salaries, wages and benefits are shown net of the imputed financing
offsetting credit (Note 8). Included in accident compensation for fiscal year 2013 is a $2.8 million
increase in the actuarial FECA estimated liability.


Note 10. Commitments and Contingencies

Legal Contingencies

FPI is party to various administrative proceedings, legal actions, and claims. The balance sheet
includes an estimated liability for those legal actions where management and the FPI General
Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal actions
where management and the FPI General Counsel consider adverse decisions reasonably possible and
the amounts are reasonably estimable, should not result in judgments which would have a material,
adverse effect on the organization’s financial statements. Furthermore, there are cases where
amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
estimated or the likelihood of an unfavorable outcome is considered remote.

Lease Commitments

FPI leases certain facilities, machinery, vehicles and office equipment under noncancelable capital
and operating lease agreements that expire over future periods. Many of these lease agreements
provide FPI with the option (after initial lease term) to either purchase the leased item at the then fair
value or to renew the lease for additional periods of time. As of September 30, 2013, future capital
lease payments due and future operating lease commitments total $75 and $209, respectively.

Product Warranty

FPI offers its customers a promise of an “Escape Proof Guarantee” on the products it manufactures.
FPI has analyzed the historical pattern of warranty returns and the adequacy of the warranty returns
and allowances. In this regard, FPI has established an estimate of future warranty returns related to
current period product revenue.

Changes in aggregate product warranty liability
Fiscal years ended September 30,                                          2013                     2012

Balance at the beginning of the period                                    $ 418                   $ 444
Accruals for warranties issued during the period                            253                     349
Settlements made (in cash or in kind) during the period                    (283)                   (375)

Balance at the end of the period                                          $ 388                   $ 418


                                                  -37-
                                  Fiscal Years 2013 and 2012
                                 Notes to Financial Statements
                                    (Dollars in Thousands)


Congressional Limitation on Administrative Expenses

Congress has imposed an annual spending limit on certain administrative expenses relating to FPI’s
central office management. These costs include salaries for management personnel, travel expenses
and supplies. The following is a comparison of actual expenses to the limitation imposed:

Fiscal years ended September 30,                                      2013                   2012

Congressional limitation on expenses                                $ 2,700               $ 2,700

Expenses incurred subject to Congressional limitation               $ 2,170               $ 1,760




                                              -38-
